LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

August 31, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-546: DOUGLAS BROWNBACK, ET AL. V. JAMES KING
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of the Cato
Institute and National Police Accountability Project as Amici Curiae in the case
referenced above contains 7,950 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 31st day of August 2020.

